No.
OCTOBER TERM, 2021

~tfte {ilt(J1renie ?f3ot//Jrt !}/tfte 626lited <;/tat~
THOMAS RICHARDSON, Petitioner,
V.

THE STATE OF NEVADA, Respondent.

On Petitjon for Writ of Certiorari to the
Nevada Supreme Court
PROOF OF SERVICE
I, Dayvid Figler, do swear or declare that on this date, August 26, 2021, as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FORA WRIT OF CERTIORARI
on each party to the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first·class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as
follows:
Aaron D. Ford, Nevada Attorney General; 100 North Carson Street;
Carson City, NV 89701;
Steve Wolfson, Clark County District Attorney; 200 Lewis Ave ., 3rd
Floor; Las Vegas, NV 89155; and
Thomas Richardson, NDOC # 1044324; Ely State Prison; P.O. Box 1989;
Ely, NV 89301
I declare under penalty of perjury that the
Executed on August 26, 2021.

